No. 20A126

 

 

Iu the Supreme Court of the United States

TATE REEVES, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF MISSISSIPPI; PHILIP
GUNN, IN HIS OFFICIAL CAPACITY AS SPEAKER OF THE MISSISSIPPI HOUSE OF
REPRESENTATIVES; DELBERT HOSEMANN, IN HIS OFFICIAL CAPACITY AS
LIEUTENANT GOVERNOR OF MISSISSIPPI; MICHAEL WATSON, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF STATE OF MISSISSIPPI; CAREY M. WRIGHT, IN HER
OFFICIAL CAPACITY AS STATE SUPERINTENDENT OF EDUCATION AND EXECUTIVE
SECRETARY OF MS STATE BOARD OF EDUCATION; ROSEMARY AULTMAN, IN HER
OFFICIAL CAPACITY AS MEMBER OF THE MISSISSIPPI STATE BOARD OF EDUCATION;
JASON DEAN, IN HIS OFFICIAL CAPACITY AS CHAIR OF THE MISSISSIPPI STATE BOARD
OF EDUCATION; KAREN ELAM, IN HER OFFICIAL CAPACITY AS MEMBER OF THE
MISSISSIPPI STATE BOARD OF EDUCATION; ANGELA BASS, IN HER OFFICIAL CAPACITY
AS MEMBER OF THE MISSISSIPPI STATE BOARD OF EDUCATION; RONNIE MCGEHEE,
IN HIS OFFICIAL CAPACITY AS A MEMBER OF THE MISSISSIPPI STATE BOARD OF
EDUCATION; GLEN EAST, IN HIS OFFICIAL CAPACITY AS A MEMBER OF THE MISSISSIPPI
STATE BOARD OF EDUCATION,

Applicants,

. Fi.
INDIGO WILLIAMS, ON BEHALF OF HER MINOR CHILD J.E.; DOROTHY HAYMER,
ON BEHALF OF HER MINOR CHILD, D.S.; PRECIOUS HUGHES, ON BEHALF OF HER
MINOR CHILD, A.H.; SARDE GRAHAM, ON BEHALF OF HER MINOR CHILD, 8.T.,
Respondents.

 

 

 

CERTIFICATE OF SERVICE

I, Krissy C. Nobile, counsel for applicants Tate Reeves, Philip Gunn, Delbert
Hosemann, Michael Watson, Carey M. Wright, Rosemary Aultman, Jason Dean,
Karen Elam, Angela Bass, Ronnie McGehee, and Glen East, all in their official
capacities (collectively, “the State”), and a member of the bar of this Court, hereby

certify that on January 29, 2021, a copy of this Reply in Support of Application to
Recall and Stay Mandate of the United States Court of Appeals for the Fifth Circuit
Pending the Filing and Disposition of a Petition for Writ of Certiorari in the above-
entitled case and its appendix was served, as required by U.S. Supreme Court Rule
29, via Federal Express and email to the following:

Brad Elias

O'Melveny & Myers, L.L.P.
7 Times Square

Times Square Tower

New York, NY 10036
212-326-2000

Email: belias@omm.com

Anton Metlitsky

O'Melveny & Myers, L.L.P.
7 Times Square

Times Square Tower

New York, NY 10036
212-326-2291

Email: ametlitsky@omm.com

Jason Zarrow

O'Melveny & Myers, L.L.P.
1625 Eye Street, N.W.
Washington, DC 20006
212-326-2000

Email: jzarrow@omm.com

Christine Bischoff

Southern Poverty Law Center

Suite 280

111 E. Capitol Street

Jackson, MS 39201

601-948-8882

Email: christine.bischoff@splcenter.org

William B. Bardwell
Southern Poverty Law Center
Suite 280

111 E. Capitol Street
Jackson, MS 39201
601-948-8882
will.bardwell@splcenter.org

Rita Bender

Skellenger Bender, P.S.

Suite 3401

1301 5th Avenue

Seattle, WA 98101-2605

206-623-6501

Email: rbender@skellengerbender.com

William Bender

Skellenger Bender, P.S.

1301 5th Avenue

Seattle, WA 98101-2605

206-623-6501

Email: wbender@skellengerbender.com

Counsel for Plaintiffs-Respondents

Dated: January 29, 2021
Respectfully submitted,

LYNN FITCH
Attorney General of Mississippi

By:

 

Counsel of Record
Justin L. Matheny
Candice L. Rucker
Drew D. Guyton
STATE OF MISSISSIPPI
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 220
Jackson, Mississippi 39205-002
(601) 359-3680
krissy.nobile@ago.ms.gov

Counsel for Defendants-Applicants
